           National Archives and Records Administration
           Office ofthe Inspector General                                             8601 Adelphi Road, Room 1300
                                                                                 College Park, Maryland 20740-6001


Date:      May 13,2010
Reply to
Attn of.   Office oflnspector General (OIG)

Subject:   Management Letter 01 10-03: Backup Computer Tape Disposal

To:        David S. Ferriero, Archivist of the United States (N)

In December 2009, a complainant reported to the OIG that NARA was not properly or adequately
disposing of used and/or failed computer backup tapes. The OIG deployed both audit and
investigative resources to examine this issue. The purpose of this Management Letter is to
formally advise you of the results of our analysis. The claim was substantiated in that we found:
(1) NARA failed to adequately control the disposal of these tapes; and (2) NARA can provide no
assurance that sensitive information has not inappropriately left NARA's controL

Computer Back-Up Tapes:

For several years, NARA has employed a variety of magnetic tape media to back up information
stored on NARA's many varied computer systems throughout the country. Part of the lifecycle of
a backup tape is to be reused. When tapes are reused, recorded information is written over with
new information. While tapes are regularly reused, each individual tape has a limited life
expectancy. Typically, a tape will report an "error" message when it is no longer performing to
the manufacturer's standards. At this point the tapes are deemed no longer usable. Throughout
their life in the backup process, tapes are tracked and logged. However, once an "error" message
is received and the tape is deemed to have failed, the tape is taken out of the backup rotation and
its existence is no longer catalogued. NARA does not have an adequate accounting of these tapes,
as we have found their final disposition varies widely. While some tapes are burned, shredded, or
stored indefinitely, the fate of many is simply unknown.

Lack of a Disposal Process:

On December 14,2009, OIG staff met with senior Offices ofInformation (NH) staffto solicit
information about the process for handling and disposal of backup tapes. Senior NH staff referred
to a "Media Sanitation Policy," but allowed that current backup tape handling policy does not
address the destruction of tapes at the end of their useable life. While Field Office Support
Administrators (FOSAs) are typically charged with managing backup tapes at their respective
NARA facilities, NH staff stated that FOSAs are not authorized to destroy tapes. Instead, tapes
should be returned to NARA's College Park facility (A2) for storage in a warehouse cage.




              The NARA Office ofInspector General web site can be found at http://www.archives.gov/oig/
Both rank-and-file staff, as well as contractors supporting NARA, told OIG they were not aware of
any policy or standard operating procedure governing the destruction of tapes, nor of any
requirement to document such destruction. One FOSA, unaware that NH did not allow it, stated
he independently destroyed failed tapes because of his concerns for the potential disclosure of
sensitive information. He was unaware of any standard operating procedures for the destruction of
tapes. He stated that once tapes are at the end of their lifecycle, he takes the tapes outside to
maintenance personnel who, under his supervision, burn the tapes in a steel drum. He also stated
he had in the past sent tapes to NARA's Federal Records Center in Fort Worth, Texas, where a
shredder capable of large-scale tape destruction is available. He did not know whether any other
NARA facilities incinerate their failed tapes. He stated this process is not documented.

Senior NH staff confirmed that no destruction policy exists, and the unwritten policy is to forward
failed tapes to NARA for storage in an A2 warehouse cage. An examination of the cage in
question revealed 10-15 boxes of varying sizes stuffed with backup tapes from a variety of
technologies, some dating back to 1987. Between January 20,2010 and February 26,2010, OIG
staff inventoried the tapes from the warehouse cage. Throughout this process, a lack of a
standardized tape labeling methodology was readily apparent. Many tapes did not contain labels
and others contained labels with limited information. It was difficult and frequently impossible to
determine the contents and origin of the backup tapes from their labels. A sample of the
spreadsheet documenting the tape inventory is attached as Appendix - 1. The complete inventory
is available at your request. Images of tapes collected in the A2 warehouse cage are attached as
Appendix - 2.

Conclusion:

Our analysis revealed confused and contradictory beliefs and understanding of what was and was
not allowed in terms of computer backup tape disposal at NARA. FOSAs were unaware of any
policy, written or otherwise, governing tape disposal. Personnel responsible for the tapes are left
to their own devices. Some burned them. Some sent them to be shredded. Others sent them to
NARA where they were not destroyed, but stored in a warehouse cage. It was alleged that some
tapes were simply thrown in the office trash.

A lack of a uniform labeling methodology also made it impossible to distinguish tapes containing
sensitive data. Once tapes failed, there was no tracking, management, or oversight of their
disposal. Senior NH staff insist the risk of exposure is low and that it would be close to impossible
to recover data from a failed backup tape. We disagree. While the risk mayor may not be low, it
is the view of the OIG that while viewing the entirety of the data on a tape may be difficult, it is
possible, and even likely, that portions of data would be retrievable and such portions could
include a wide variety of sensitive information.

Ultimately, NARA cannot say whether all tapes at the end of their useable life are or are not
delivered and present at A2, whether they are effectively destroyed or simply thrown in the trash.
No documentation of failed tapes exists once they are taken offline, and no mechanism is in place
to track their disposal. While one may argue the likelihood of sensitive information being leaked
in this fashion, simple due diligence and limited initiative could virtually eliminate such a



                                                 2

possibility and operational best practices demand such steps be taken. We note that per NH, the
processes we evaluated here continue to evolve as NARA converts to new backup technologies.

Please advise me within 30 days what action has been or will be taken to address these issues.
Should you have any questions after you have had an opportunity to review this management
letter, please e-mail me or Ross Weiland, AlGI, or call us at (301) 837-3000.



                                               ~//~(;1
                                                Paul Brachfeld / "
                                                Inspector General



Enclosures:

Appendix 1: Inventory of backup tapes stored in A2 warehouse cage
Appendix - 2: A2 warehouse cage pictures




                                                3

                  APPENDIX - 1: Sample of Warehouse Cage Inventory



                                                     Label Information                                                 Tape Information                    ~



                  ServerlS:ystem                 i          Date       I          ~            I Initials       ~                      Notes               Box
          ~
                                                 I            12/812006 I 1 of 5               Inone       DellLTOI                                         1
                                                              7127/2007 30f7                   Inone       Maxell LTOI                                      1
          \                                      I            5113/2006 20f2                   Inone       Verbatim LTOI                                    1
                                                             11124/2006 i 1 of 2                none       LTOI                                             1
                                                             12/1512006 1 of 4
                                                                           r                    none       LTOI                                             1
          blank                                  blank                         blank           none        LT03                                             1
                                                              10/612006 blank                  none        LTOI                                             1
                                                              712712007 lof7                   none        LTOI                                             1
     r
     I
                                                 blank                         blank           none        LT02           AOO020                            1
                                                               5/6/2006 20f2                   none        LTOI                                             1
     L=                                                      10/20/2006 blank                  none        LTOI                                             1
                                                              7/2712007 70f7                   none       LTOI                                              1
     I
              -                                              7/26/2005
                                                              7/812008
                                                                         blank
                                                                        40f4
                                                                        40f7
                                                                                               none
                                                                                               none
                                                                                                          DLT4
                                                                                                          LTOI
                                                                                                                          "test backup of sys"
                                                                                                                          "successful"                     1
                                                                                                                                                           1
                                                                                                                                                           1
              -    -
                                                             7/27/2007                         none       LTOI
     I                                                      10/27/2006   lof2                 none        LTOI            monthly                          1
                                                              5/612006   lof2                 none        LTOI                                             1
                                                             12/2/2006  30f3                  none        LTOI                                             1
     I'                                                      911612006  blank                 none'       LTOI                                             1
              -   -.                                         911212006  blank                 none        LTOI                                             1
                                                                                                                                                           -­


r-
~-
                   .
                           -­

                                        -­
                                                 blank                  blank
                                                               4/8/2006 blank
                                                             7118/2006 blank
                                                            11124/2006 blank
                                                             101112006 20f2
                                                                                              none
                                                                                              none
                                                                                              none
                                                                                              none
                                                                                              none
                                                                                                          LT02
                                                                                                          LT02
                                                                                                          LTOI
                                                                                                          LTOI
                                                                                                          LTOI
                                                                                                                         aOOO15
                                                                                                                                                           1
                                                                                                                                                           1
                                                                                                                                                           1
                                                                                                                                                           1
                                                                                                                                                           1
 l-==                                                          8/4/2006 blank                 none        LTOI                                             1
I

t-­
          -                    -
                                                             101112006 lof2
                                                             712812006 blank
                                                                                              none
                                                                                              none
                                                                                                          LTOI
                                                                                                          LTOI
                                                                                                                                                           1
                                                                                                                                                           1
                                                             7/2812006 blank                  none        LTOI                                             1
                                                              8/412006 blank                  none        LTOI                                             1
r                                                             8/4/2006 lof2                   none        LTOI                                             1
                                                             6116/2006 lof2                   none       LTOI                                              1
                                                              91112006 20f2                   none       LTOI            no tape 1                         1
          --_.                                               8125/2006 blank                  none     LTOI              I
                                                                                                                                                   .      1
                                                                                                                        Handwritten note stating the
                                                                                                                        following: "This backup tape
                                                                       I
                                                                                                                        was provided by I -
                                                                       I                                                   --NHT, on 3/13/07@
                                                                       I                  I                             1: 15pm. This is an incremental
                                             I                         i                                                backup tape from the Reagan
                                                                                          I
                                             I              7/22/20061 blank             inone         LTOI             Iibrarv"             -   --­
                                                                                                                                                        I 1
                                                                      1
                                   Ii        I              2122/200811 of 2
                                                                                         I
                                                                                         Inone        LTOI              L                              I   1
                                             r                                                                               ~,




                       1                     !               4/812006 i 1 of 2             none       LTOI                                                 1
I­ - - ­                                                                                 I
                                             I             10/27/2006120f2                 none       LTOI                                                 1
                           y
                                             I             10127/2006jblank                none       LTOI                                                 1
-­                                           I             10/13/2006, blank              none        LTOI                                                 1




                                                                                       App. 1-1 

              APPENDIX - 1: Sample of Warehouse Cage Inventory


                                                            Label Information                                                 Tane Information
                                                                                                                                                      ,
                                                                                                                                                      .. ~

              "                        .1<;: IlH"lll
                                                                    !2!!!:£              !&ill:'.        ~         IY..ru;.                  ~
         blank                                             [blank               [blank                 inane  ILT02                                           1
         blank                                             'blank               [blank                 inane 'LTOI                                            1
         blank                                             Iblank               IbEiclZ                ,none  LTOl                                      1
         blank                                              blank                blank                inane    LT02                                     1
         blank                                              blank               iblank                :none    LTOl                                   i 1
                                        I                           10/13/2006 2 of 4                   none  LTOI                                    ! 1
                                                                     7i2?l?oor. 10[9                    none  LTOl                                    '\
                                                                     2/10/2007,3 of 3                 I none [LT01                                            1
        Iblank                                             Iblank               [blank               :none   IDLT4                                         1
                                             ,,~
                                                                     7/27i2007 of3                    I none ILT02                                            1
        ~~                                                 Ihlank               Iblank                  none iLTOl                                            1
                                                           'Tuesday             iblank                 none  IDLT4                                        i
                                                                    11117/20()6 140f4­               none    ILTOl                                        i
     Iblank                                                 blank               Ibla;k               inane    LTOl                                iT
    l                                                                1119/2007'3 of 4                  none  ILT02                       ~
                                                                                                                                                     1
    I                                                                1119/200712 of 4                'none   LT02                                    1
                                                                    1111112006120f3                   none    LT01                                   1
    I.                                                                8/5/2006 110f3                  none   LTOI                                    1
                                                                     8/25i2006 120f2                 none    LTOl                                    1


    I
         -                                             w
                                                                     3/2012009 of5                    none   LT01                                 i, 1

                                                                      7/20/2007 20f3                 Inone     iLT02                                      1
                                                                      4/13/2007 30f3                  none      LT01                              i       1
                                                                      7/22/2006 2 of2                 none      LTOI                              !       1
                                         .                              91112006hlank                inone      LT01                                      1
                  ,                                                                                  I
    ,.
         -                                                            9122/2006 blank
                                                                     10/27/200610f2
                                                                                                       inone
                                                                                                        none
                                                                                                               iLTOl
                                                                                                                LT01
                                                                                                                                                          1
                                                                                                                                                          1
                                       ."'                            8/2512006 20f4
                                                                                  ..........- ­
                                                                                                       :
                                                                                                    .. ~
                                                                                                        none    LTOI                                      1
                                                                      8/25/2006 20f4                   :none    LTOI                                      I
                                        -
    I--­
    •    -­           . -.               .-!,
                                                       ,
                                                           blank
                                                                      8/25/2006 40f4
                                                                                   Iblank
                                                                                                        none
                                                                                                       'none
                                                                                                                LTOI
                                                                                                               ,LT02

                                                                                                               I
                                                                                                                                                          1
                                                                                                                                                          1


                      .
                                                                      4113/2007 110f2               ,none       LTOI                                I 1
                                                                                                                                                 .. ~
                                                                      li12120071 of 1               Inone      ILToI
         -
         ..
                                                                      9/29/2006120f2
                                                                      1113/200611 tape
                                                                                                    inone
                                                                                                     none
                                                                                                               :LTOl
                                                                                                                LTOI
                                                                                                                                                    I 1
                                                                                                                                                      1
                                   ~
                                                           blank                140f4               inone       LT02                                      1
                                                                                  -r                T
I~                                                                  1211 0/2006 i 1 tape only Inone             LTOl                             I        1
              .               ..                                    11117/2006 blank           :none            LTOI                                      1
~                             •                                     11126/2006 I             1 inone            LTOl                                      1
                  .                                                  4/27/2007 of 4            Inone            LTOl                                      1
    blank                                                  blank                  [blank            inone      'LT03                                   i
    -                                                                4/24/200920f7
                                                                                                    e           LTOI                                  1

    --
                                                                     4/24/200911 of?­                           LT01                                      2
                          ,
                                                                     811812006 140f4                :none       LTOI                                      2
'------.          .                                                  10/6/2006 iblank                none      LTOI                                       2




                                                                                                  App. 1-2 

   APPENDIX - 1: Sample of Warehouse Cage Inventory



                    Label Information                                       Tape Information
    Server/System          Date              Copy     Initials       Type               Notes   Box
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
vault                         1/22/2008   blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2
blank               blank                 blank       none       LTO2                            2




                                                    App. 1-3
APPENDIX – 2: Warehouse Storage of Used/Failed Computer Backup Tapes




      Some used/failed computer backup tapes, among other items, were thrown in old boxes and stacked on a
      pallet in the A2 warehouse cage. These boxes included at least one tape from 1987, as well as a variety of
      old floppy disks.




                                                        App. 2-1
                                                                      Additional tapes arrived at the A2 warehouse cage
                                                                      during the course of the OIG’s inventory. 




No uniform labeling standard existed on the discarded computer backup tapes and many had no label at all. Where labels
existed, they provided no information regarding the sensitivity of the tape contents.




                                                         App. 2-2
